           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



  PERFORMANCE INDICATOR AUDIT:
       IMPROPER PAYMENTS


   August 2007     A-15-07-17128




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                        SOCIAL SECURITY

MEMORANDUM
Date:      August 31, 2007                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Performance Indicator Audit: Improper Payments (A-15-07-17128)


           We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 13 of the Social
           Security Administration’s (SSA) performance indicators established to comply with the
           Government Performance and Results Act. Attached is the final report presenting the
           results of one of the performance indicators PwC reviewed. For the performance
           indicator included in this audit, PwC’s objectives were to:
              •   Assess the effectiveness of internal controls and test critical controls over data
                  generation, calculation, and reporting processes for the specific performance
                  indicator.
              •   Assess the overall reliability of the performance indicator’s computer processed
                  data. Data are reliable when they are complete, accurate, consistent and not
                  subject to inappropriate alteration.
              •   Test the accuracy of results presented and disclosed in SSA’s Fiscal Year 2006
                  Performance and Accountability Report.
              •   Assess if the performance indicator provides a meaningful measurement of the
                  program it measures and the achievement of its stated objective.

           This report contains the results of the audit for the following indicators:

              •   Percent of Old-Age, Survivors and Disability Insurance payments free of
                  overpayment and underpayment.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                                 Patrick P. O’Carroll, Jr.
           Attachment
MEMORANDUM

Date:      August 23, 2007

To:        Inspector General

From:      PricewaterhouseCoopers, LLP

Subject:   Performance Indicator Audit: Improper Payments (A-15-07-17128)


OBJECTIVE
The Government Performance and Results Act (GPRA) 1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity. 2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicator included in this audit,
our objectives were to:

           1. Assess the effectiveness of internal controls and test critical controls over the
              data generation, calculation, and reporting processes for the specific
              performance indicator.

           2. Assess the overall reliability of the performance indicator’s computer
              processed data. Data are reliable when they are complete, accurate,
              consistent and not subject to inappropriate alteration. 4

           3. Test the accuracy of results presented and disclosed in SSA’s Fiscal Year
              (FY) 2006 Performance and Accountability Report (PAR).

           4. Assess if the performance indicator provides a meaningful measurement of
              the program it measures and the achievement of its stated objective.


1
 Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
 Government Accountability Office (GAO), GAO-03-273G, Assessing Reliability of Computer Processed
Data, October 2002, p. 3.


Performance Indicator Audit: Improper Payments (A-15-07-17128)                                       1
BACKGROUND
We audited the following performance indicator as stated in the SSA FY 2006 PAR:

Performance            Goal                                       Reported Results 5
Indicator

Percent of Old-        FY 2005                                    FY 2005 Actual6
Age, Survivors,        Overpayment accuracy: 99.8%                Overpayment accuracy: 99.6%
and Disability
Insurance              Underpayment accuracy: 99.8%               Underpayment accuracy: 99.8%
(OASDI)
payments free          FY 2006                                    FY 2006 Actual7
of overpayment         Overpayment accuracy: 99.8%                Overpayment accuracy: Not
(O/P) and                                                         Available
underpayment           Underpayment accuracy: 99.8%
(U/P) *                                                           Underpayment accuracy: Not
                                                                  Available
* The performance indicator calculation does not include unavoidable overpayments and underpayments
that may result from legal or policy requirements.

The OASDI Program, authorized by Title II of the Social Security Act, provides income
for eligible workers, eligible members of their families and survivors, eligible workers
who have qualifying disabilities and for eligible members of their families before those
workers reach retirement age. Individuals (or qualifying survivors) may become entitled
under OASDI programs based on the individual's taxable earnings during his or her
lifetime. In addition, to qualify for DI, a worker must have a physical or mental
impairment that prevents them from performing gainful work with earnings above a
certain monthly amount. 8 SSA has stated that OASDI benefit payments have an
increased risk of overpayments due to: substantial gainful activity not reported timely to
SSA, computation errors in reporting of additional earnings, annual earnings test, and
relationship/dependency (e.g., unreported marriage, not having child-in-care, and
students not in full-time attendance). In addition, SSA has stated that OASDI benefit
payments have an increased risk of underpayments due to: computation errors in
reporting of additional earnings, incorrect reporting of age/date of birth, workers'
compensation not reported timely to SSA, and wages/self-employment income not
posted correctly. "While the improper payment rate in the OASDI program is very low,
5
    SSA's FY 2006 Performance and Accountability Report, p. 95.
6
 The FY 2005 final data for the indicator was not available in time for the publication of the FY 2005 PAR.
Therefore, the final FY 2005 results were reported in the FY 2006 PAR.
7
  The performance data presented for FY 2005 is an actual. Per SSA’s FY 2006 PAR, final data will be
reported in the FY 2007 PAR.
8
    The Social Security Act, §§ 201-234, 42 U.S.C. §§ 401-434.


Performance Indicator Audit: Improper Payments (A-15-07-17128)                                           2
SSA's annual outlays are so large that even small percentages of payment error can
mean millions of dollars paid incorrectly. Accordingly, SSA seeks continuous
improvement in its process to minimize improper payments." 9 The establishment of the
Office of Quality Performance (OQP) assists with this effort.

OQP conducts reviews (known as Stewardship reviews) to measure the quality and
accuracy of recurring benefit payments provided by SSA. These reviews continue to be
the primary measure of quality for Agency performance and provide the basis for
reports to Congress and other monitoring authorities. OQP randomly selects OASDI
beneficiaries each month to participate in the review. The Office of Assistance and
Insurance Program Quality (OAIPQ), or regional OQP offices, receive the sample
participants’ information from Headquarters OQP, schedule and conduct interviews with
the beneficiary if necessary, and determine whether there has been an over or
underpayment based on changes to non-medical factors of eligibility. The results of the
review are entered into the Retirement and Survivors Insurance (RSI) Modernized
Assessment System (RMAS). See Appendix C for a workflow and description of the
review process. OQP calculates the performance indicator results based on the
outcome of the Stewardship reviews.

The performance indicator is calculated in the following manner:

                                                          * Total Weighted Overpayment
Percent of OASDI payments free of                                     Dollars
overpayment (O/P)                                =          Total Weighted Dollars Paid

                                                       * This percentage is subtracted from 100
                                                       percent to attain the accuracy rate



                                                         * Total Weighted Underpayment
Percent of OASDI payments free of                                    Dollars
underpayment (U/P)                               =         Total Weighted Dollars Paid

                                                       * This percentage is subtracted from 100
                                                       percent to attain the accuracy rate



For FY 2005, the OASDI Payment Accuracy (Stewardship) Report noted that OASDI
Stewardship reviews were completed on 1,528 cases, with an overpayment accuracy
rate of 99.6 percent and an underpayment accuracy rate of 99.8 percent. 10 The



9
    SSA's FY 2006 Performance and Accountability Report, pp. 206-207.
10
     SSA's FY 2005 Title II Payment Accuracy (Stewardship) Report, p. 1.


Performance Indicator Audit: Improper Payments (A-15-07-17128)                                    3
FY 2005 overpayment and underpayment accuracy results were presented as actual
results in the FY 2006 PAR. The actual results for FY 2006 will be reported in the
FY 2007 PAR. SSA management continued to use the FY 2005 goal as the goal for
FY 2006 indicator.

The payment accuracy rate performance indicator percentage is derived from sampled
cases and does not generally equal the true accuracy rates for all payments.
Accordingly, SSA calculates the precision, or margin of error, for each of the accuracy
rate percentages. The margin of error is not used in the calculation of the payment
accuracy rate indicator. Rather, the margin of error provides a range of values that are
expected to contain the true population accuracy rate with some level of confidence.
Appendix D provides more information on SSA’s methodology for calculating the margin
of error.

RESULTS OF REVIEW
Our assessment of the indicator included in this report did not identify any significant
exceptions related to the meaningfulness of the indicator, the accuracy of presentation,
or disclosure of information related to the indicator in the FY 2006 PAR. We were able
to recalculate the indicator results and found them to be accurate.

However, our assessment did identify issues with internal controls and data reliability.
We noted that two SSA OAIPQ programmers had direct data access that would allow
them to update production performance indicator data.

Internal Controls and Data Reliability

Two members of OAIPQ’s programming personnel had the "All" access designation
(within the Top Secret security software) to RMAS datasets used to calculate the
indicator results. This level of access allows users to create, delete and modify any of
the data (or datasets) contained within the datasets we reviewed. Therefore, the data
used to calculate the performance indicator could be inappropriately modified and could
impact the results of this performance indicator. This level of access prevents SSA from
ensuring the integrity of this production data. By allowing programming personnel to
have the "All" access designation, SSA is not conforming to Office of Management and
Budget Circular A-130, Management of Federal Information Resources, Appendix III,
Security of Federal Automated Information Resources, principles of "least privileged
access" or segregation of duties. 11 Therefore, the data cannot be considered reliable
since the access control issue created the potential for inappropriate alteration. It
should be noted that SSA management removed the programmers' update access to
RMAS during September 2006.


11
   SSA is currently implementing the Standardized Security Profile Project to address the principle of
“least privileged access” for users with access to mainframe datasets.


Performance Indicator Audit: Improper Payments (A-15-07-17128)                                           4
CONCLUSION AND RECOMMENDATIONS
We recommend SSA:

   1. Continue to restrict access to personnel who should not have the ability to
      directly modify, create or delete the datasets used to calculate indicator results.

AGENCY COMMENTS
The Agency agreed with our recommendation. The Agency’s comments are included in
Appendix E.




Performance Indicator Audit: Improper Payments (A-15-07-17128)                              5
                                          Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Statistical Methodology

APPENDIX E – Agency Comments




Performance Indicator Audit: Improper Payments (A-15-07-17128)
                                                                   Appendix A
Acronyms
CO                    Central Office
CR                    Consistency Review
DEQY                  Detailed Earnings Query
DI                    Disability Insurance
FO                    Field Office
FY                    Fiscal Year
GAO                   Government Accountability Office
GPRA                  Government Performance and Results Act
MBR                   Master Beneficiary Record
OAIPQ                 Office of Assistance and Insurance Program Quality
OASDI                 Old-Age, Survivors and Disability Insurance
ODISP                 Office of Disability and Income Security Program
OQP                   Office of Quality Performance
O/P                   Overpayment
ORSIS                 Office of Retirement and Survivors Insurance System
OSM                   Office of Strategic Management
OSSAS                 Office of Statistics and Special Area Studies
PAR                   Performance and Accountability Report
PSC                   Program Service Center
PwC                   PricewaterhouseCoopers, LLP
RETAP                 Regular Transcript Attainment and Selection Pass
RMAS                  RSI Modernized Assessment System
RSI                   Retirement and Survivors Insurance
SSA                   Social Security Administration
U/P                   Underpayment




Performance Indicator Audit: Improper Payments (A-15-07-17128)
                                                                      Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and questions to SSA management. We also requested SSA to
provide various documents regarding the specific programs being measured as well as
the specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following:

   •   Reviewed prior SSA, Office of the Inspector General and other reports related to
       SSA’s GPRA performance and related information systems.
   •   Reviewed applicable laws, regulations and SSA policy.
   •   Met with the appropriate SSA personnel to confirm our understanding of the
       performance indicator.
   •   Flowcharted the process. (See Appendix C).
   •   Tested key controls related to manual or basic computerized processes (e.g.,
       spreadsheets, databases, etc.).
   •   Conducted and evaluated tests of the automated and manual controls within and
       surrounding each of the critical applications to determine whether the tested
       controls were adequate to provide and maintain reliable data to be used when
       measuring the specific indicator.
   •   Identified attributes, rules, and assumptions for each defined data element or
       source document.
   •   Recalculated the metric or algorithm of the performance indicator to ensure
       mathematical accuracy.
   •   We assessed the completeness and accuracy of the data to determine the data's
       reliability as it pertains to the objectives of the audit.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicator appeared to be valid and appropriate given our
understanding of SSA’s mission, goals, objectives and processes.



Performance Indicator Audit: Improper Payments (A-15-07-17128)                          B-1
We followed all performance audit standards in accordance with generally accepted
government auditing standards.

In addition to these steps, we specifically performed the following to test the indicator
included in this report:

   •   Interviewed personnel in the Office of Quality Performance (OQP).
   •   Assessed the sample selection methodology for Old-Age, Survivors and
       Disability Insurance (OASDI) Stewardship case files.
   •   Reviewed a sample of OASDI Stewardship cases and determined if the review
       was in compliance with OQP policies and procedures.
   •   Reviewed the process for controlling access to the datasets storing the indicator
       data and tested the appropriateness of the access privileges granted to the
       datasets for a selection of SSA personnel.
   •   Reviewed the weights applied to the sample size and universe.
   •   Re-performed the calculation of the payment accuracy rate, including case
       weights, for overpayment and underpayments.




Performance Indicator Audit: Improper Payments (A-15-07-17128)                          B-2
                                                                                                                                                                      Appendix C
Flowchart of OASDI Payment Accuracy
                                         The Office of Retirement                                               Retirement Survivors
                                         and Survivors Insurance                                                Disability Modernized
                                                                              Office of Statistics and
                                          Systems (ORSIS) uses                                                  Assessment System
                                                                               Special Area Studies
         Annual selection                   Regular Transcript                                                 (RMAS) selects cases                      Electronic Notification
                                                                             (OSSAS) maintains Field
                                        Attainment Selection Pass                                                 based on cluster
                                                                              Office (FO) cluster file
                                        (RETAP) program to select                                              indicator and eligibility
                                           1 of every 500 cases                                                         criteria




       The Office of Assurance
            and Insurance
        Performance Quality
       (OAIPQ) requests claim
        folders from Program
        Service Center (PSC)




      OAIPQ gathers queries:
        Numident, Summary
      Earning Record (SEQY),                                                                                 OAIPQ reviewer                              Is case
                                           OAIPQ receives                OAIPQ creates                                                                                                    OAIPQ
     Detailed Earnings Record                                                                            completes SSA-2930/31                        selected for
                                          folder and begins            review folder with all                                                                               Yes        schedules in-
          (DEQY), Master                                                                                  forms and recalculates                      face-to-face
                                             desk review                  documentation                                                                                               person interview
     Beneficiary Record (MBR),                                                                               benefit payment                           interview?
      and Full Claims Earnings
          Record (FCER)

                                                                                                                                                          No




                                                                                                                                                                                    Reviewer compares
                                                                                                                                                 OAIPQ contacts
                                                                                                                                                                                      information from
                                                                                                                                               beneficiary by phone
                                                                                                                                                                                   beneficiary to the SSA-
                                                                                                                                                  (approx. 75%)
                                                                                                                                                                                         2930 form.




                                                                                        No



   Does OAIPQ                                           Does OQC
                             OAIPQ updates
    identify any       No                               identify any
                                 RMAS
  discrepancies?                                      discrepancies?
                                                                                                   OAIPQ return
                                                                                                                                    Updated RMAS
                                                                                                  case file to PSC

       Yes

      OAIPQ                       Yes
    completes
                                                                                                                                                                        OAIPQ keeps
      benefit                                                            No                                                      Operating            Operations                              OAIPQ retains
                                                                                                                                                                        review folders
    calculation                                                                                                                 component             ensures the                             SSA-8538 for
                                                                                                                                                                          18 months
    worksheet                                                                                     Does PSC rebut                 performs              correction                              5 years and
                                                                                                                        No                                              after database
                                                                                                     findings?                   corrective            was made                                disposes of
                                                                                                                                                                          close or 12
                                                                                                                               action within           within 20                                  case
                                                                                                                                                                         months after
                                                                                                                                  20 days                days                                      file
                                                                                                                                                                             report
     OAIPQ                                                                                               Yes                        Yes
 calculates over/
 under payment
                                                                                                       PSC and
                                                                                                   OAIPQ resolve             Corrected action
                                                                                                                                                                       No
                                                                                                   differences and              required?
                                                                                                    update RMAS
      OAIPQ
    documents                OQC performs
                                                        Does OQC identify                                                                                                                     Updated RMAS
   discrepancies              consistency
                                                        any discrepancies?
  on SSA-93 and                 review
  updates RMAS


                                                               Yes


                                                          OQC notifies
                                                                                   OAIPQ updates
                                                         OAIPQ of review
                                                                                       RMAS
                                                             errors




                                                                                                                OQP creates
                               Office of Quality                                   OQP calculates the
                                                       OQP weights cases                                         Fiscal Year               OQP reports results
                             Performance (OQP)                                          accuracy                                                                         OSM publishes GPRA results
                                                       to sample size and                                       Stewardship                to Office of Strategic
                              extracts accuracy                                    percentage for O/P                                                                              in PAR
                                                            universe                                               Reports                 Management (OSM)
                              data from RMAS                                             & U/P




Performance Indicator Audit: Improper Payments (A-15-07-17128)                                                                                                                                                C-1
Flowchart of OASDI Payment Accuracy - Narrative
   •   The Office of Retirement and Survivors Insurance Systems (ORSIS) uses the
       Regular Transcript Attainment and Selection Pass (RETAP) program to select
       1 of every 500 cases eligible for selection from the Master Beneficiary Record
       (MBR) so the input file is a manageable size. The sample is selected monthly,
       usually on Friday, from cases in pay status on the current MBR. This will result
       in the sample size of 500 Disability Insurance (DI) and 1,000 Retirement and
       Survivors Insurance (RSI) cases.
   •   Office of Statistics and Special Area Studies (OSSAS) updates Field Office (FO)
       cluster to identify those FOs that are eligible for sample selection.
   •   RSI Modernized Assessment System (RMAS) transmits support materials and
       lists of cases electronically to the Office of Assistance and Insurance Program
       Quality Branch (OAIPQ) and Central Office (CO).
   •   OAIPQ requests claim folders from the Program Service Center (PSC), gathers
       queries, e.g., MBR, Numident, Detailed Earnings Query (DEQY).
   •   Upon receipt of the claim folders, OAIPQ will perform a desk review and
       recalculate benefits payments to verify accuracy of payment in sample period.
       OAIPQ will complete the portion of the RSI/DI Quality Review Case Analysis
       form (SSA -2930) related to the desk review and MBR documentation.
       Verification tables are used to guide the information collection process.
   •   The desk reviewer contacts the beneficiary to verify existence and receipt of
       payment. In most cases, contact may be made either by phone or in person for a
       field review. The field interview is required to obtain certain types of verification,
       such as earnings for the Annual Earning Testing or the relationship between
       beneficiaries on the sampled Social Security Number.
   •   If a field interview is required, the reviewer compares the information gathered
       from the sampled beneficiary to the information obtained and documented in the
       SSA-2930.
   •   OAIPQ enters results regarding the accuracy of payments made in the sample
       period into the RMAS. RMAS is a record of the types of deficiencies, the number
       of occurrences, and the dollar impact.
   •   If OAIPQ does not detect any discrepancies, a random sample of 10 percent of
       the non-error cases is selected for Consistency Review (CR) by Office of Quality
       Performance (OQP). Following CR, the Title II folder is returned to the PSC.
       OQP's case file is maintained in the OAIPQ for the specified period of time.




Performance Indicator Audit: Improper Payments (A-15-07-17128)                            C-2
   •   If OAIPQ does identify discrepancies, OAIPQ will document findings on the
       Quality Review Feedback Report (SSA-93) and forwards the report to OQP for a
       CR for all dollar errors over $5. Following the CR, the Title II folder and SSA-93
       are returned to the PSC. Informational discrepancies, which do not affect the
       payment under review, are also reported.
   •   If the PSC does not agree with deficiency, Feedback Coordinator rebuts the
       review findings either informally or through a potentially three-level process
       culminating with the Regional Commissioner. Resolution may occur at any level.
   •   If the PSC agrees with the deficiency, operating component performs corrective
       action, indicating action on the SSA-93, and forwards the response to OAIPQ.
   •   If OQP agrees with the rebuttal and RMAS is still open for the year, OQP
       removes the discrepancy from the database so that it is not reported as an error.
   •   The OAIPQ maintains a separate file for each case that is reviewed. These files
       are maintained in the respective OAIPQ offices for approximately 18 months after
       the close of RMAS for that year. Following the retention period, SSA-8538
       (Quality Review Collateral Contact List/Record of Disclosure) is removed from
       the file and retained for 55 years, and the rest of the case file is destroyed.
   •   OQP extracts accuracy data from RMAS and applies case weights to sample
       size and universe.
   •   OQP calculates the accuracy rate (error dollars divided by the total dollars paid
       for the fiscal year) for payments with overpayment and underpayment dollars and
       reports the rates in the Stewardship report.
   •   Indicator data is sent to Office of Disability and Income Security Program for
       review of results in the Stewardship report and subsequently reports the annual
       Government Performance and Results Act (GPRA) results.
   •   The Office of Strategic Management publishes the reported GPRA results in the
       annual Performance Accountability Report.




Performance Indicator Audit: Improper Payments (A-15-07-17128)                         C-3
                                                                              Appendix D

Statistical Methodology - Margin of Error Calculation
PricewaterhouseCoopers reviewed this performance indicator during the Fiscal Year
(FY) 2005 Financial Statement audit. During the FY 2006 Government Performance
and Results Act (GPRA) audit, we found no significant changes to the sampling and
estimation models used to calculate this performance indicator. As such, our previous
assessment of the sampling and estimation models used by the Social Security
Administration (SSA) management in FY 2005 is consistent with the sampling and
estimation models used in FY 2006. SSA uses a random group methodology to
calculate the Title II payment accuracy margin of error. Per SSA documentation the
margins of error methodology is described as follows:

1. The sample data is randomly assigned to 10 groups of equal size with any remainder
   assigned randomly, 1 to a group.
2. The accuracy rate (number of cases without error divided by the total number of cases)
   is computed independently for each of the 10 groups.
3. The variance is computed by subtracting the accuracy rate for each group from the
   accuracy rate established for the entire sample, squaring that difference, summing the
   squared differences, and dividing by 90.

The description provided by SSA is a valid method (dependent random groups) for
standard error estimation.1 The standard error is calculated as the square root of the
variance. To calculate precision at the 95 percent confidence level, SSA multiplies the
standard error by 2.26 (the 97.5th percentile of the t-distribution with 9 degrees of
freedom). To calculate the 95 percent confidence intervals, SSA multiplies the standard
error by 2.26 and adds this number to the projected accuracy rate to get the upper
95 percent confidence limit, and subtracts this number from the projected accuracy rate to
get the lower 95 percent confidence limit. We found the method for calculating the margin
of error valid, and matched approximately SSA’s reported margin of errors and confidence
intervals. An exact match with SSA’s reported margin of errors and confidence intervals
was not possible due to differences in random seed number selection and group
allocation.




1
 See Sarndal, C.-E., B. Swensson, and J. Wretman (2003), Model Assisted Survey Sampling, Springer,
Section 11.3.2.


Performance Indicator Audit: Improper Payments (A-15-07-17128)
                                                                 Appendix E
Agency Comments




Performance Indicator Audit: Improper Payments (A-15-07-17128)
                                             SOCIAL SECURITY

MEMORANDUM

Date:      August 23, 2007                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit: Improper
           Payments" (A-15-07-17128) –INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the recommendation is
           attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: Improper Payments (A-15-07-17128)                               E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT "PERFORMANCE INDICATOR AUDIT: IMPROPER PAYMENTS"
(A-15-07-17128)


Thank you for the opportunity to review and comment on the draft report. Our response to the
specific recommendation is provided below.

Recommendation 1

The Social Security Administration should continue to restrict access to personnel who should
not have the ability to directly modify, create or delete the datasets used to calculate indicator
results.

Response

We agree. The report accurately notes that the finding regarding the internal control problem
was corrected in September 2006; therefore, no further action is necessary.




Performance Indicator Audit: Improper Payments (A-15-07-17128)                                       E-2
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                     Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                     Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                                Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
